                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: 112060038                                                                      Page 1 of 1



                                                         Close Out


                  The Federal Financial Reports for an award 1 showed significant expenditures posted to
          the award for the quarter in which the award expired and a period for which little activity was
          reported. We requested source documentation from the awardee institution, 2 and the institution's
          detailed response provided a reasonable explanation for the post-expiration charges.
          Accordingly, this case is closed with no further action taken.




NSF OIG Form 2 (11 /02)
